HHS/OIG, Audit -"Review of Medicare Claims for Air Ambulance Services Paid to Native American
Air Ambulance,"(A-09-04-00029)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Claims for Air Ambulance Services Paid to Native American Air Ambulance," (A-09-04-00029)
July 6, 2005
Complete
Text of Report is available in PDF format (792 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Native Air claimed air ambulance services for calendar year
2002 pursuant to Medicare billing requirements.  Of our random sample of 100 claims, 15 claims
were improper.  Of the 15 claims, 1 claim was for a medically inappropriate service, and 14 claims
were for transporting patients beyond the nearest hospital with appropriate facilities. As a result,
$10,589 of the $330,713 reviewed was unallowable.  We estimated that at least $62,408 of the $3,968,759
paid to Native Air for air ambulance claims was unallowable for Medicare reimbursement.  We recommended
that Native Air:  (1) refund to the Medicare program $62,408 in overpayments, (2) strengthen policies
and procedures to ensure that only medically appropriate air transport services are billed to Medicare,
and (3) strengthen policies and procedures to ensure that air transport services are billed for the
mileage to the nearest hospital with appropriate facilities and that documentation in the medical records
supports the reason for transporting patients beyond the nearest hospital with appropriate facilities.  In
written comments, Native Air disagreed with our findings and procedural recommendations and did not
comment on our recommendation for a refund.